Executive Report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenuesby the Kansas Highway Patrol, State of Kansas
GR-50-00-014February 25, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice, Office of the Inspector General has completed an audit of the use of equitable sharing revenues by the Kansas Highway Patrol.  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.  From July 1, 1998 through June 30, 1999, the Kansas Highway Patrol received a total of $1,687,278 in the equitable sharing fund.  In the same year, the Kansas Highway Patrol expended a total of $2,279,533 from the equitable sharing fund, which included unspent receipts from prior years.  

We determined that Kansas Highway Patrol generally complied with Department of Justice guidelines.  However, our audit disclosed that a $94,318 check issued by the United States Marshals Service remained outstanding for about 1 year and the Kansas Highway Patrol was not aware that the check was missing.  A follow-up system to track shares receivable would ensure that equitable shared funds are received timely and are properly accounted for. 
 
The audit results are discussed in the Findings and Recommendations section of this report.  Our audit scope and methodology appear in Appendix I.